RTIS)

Curtis, Mallet-Prevost, Colt & Mosile LLP

Almaty London Telephone +1 212 696 6000
Been aaa City 1401 Park Avenue Facsimile a Pd 1569
Buenos Aires Muscat New York, New York 10178-0061

Dubai Nur-Sultan

Frankfurt Paris Hermann Ferré
Geneva Rome Tel: +1 212 696 8871
Houston Washington, D.C. Fax +1917 368 6871

E-Mail: hferre@curtis. com
September 11, 2020

Clerk of Court

Supreme Court of the United States
1 First Street NE

Washington, DC 20543

(202) 479-3011

Re: United States of America v. Jose Luis Vaello Madero
No. 20-303

Dear Clerk of Court:

I represent Respondent José Luis Vaello-Madero in the above-captioned matter. Pursuant
to Supreme Court Rule 30.4, I respectfully submit this unopposed request for an extension of time
to submit Respondent’s Brief in Opposition to the Petition for a Writ of Certiorari filed by the
United States on September 4, 2020 in the above-captioned matter. The Brief in Opposition to the
Petition for a Writ of Certiorari is currently due on or before October 9, 2020. I respectfully seek
a 30-day extension of this deadline. Because 30 days from October 9, 2020, is a Sunday, I
respectfully seek leave to file Respondent’s brief on or before November 9, 2020.

In support of this request, [ note that counsel for Respondent is based in New York, where
its offices remain closed and where attorneys and staff continue to work remotely due to the Covid-
19 pandemic. In light of the delays associated with remote work, as well as upcoming deadlines
in various confidential arbitration proceedings in which Respondent’s counsel is engaged,
Respondent seeks the aforementioned extension. Counsel for Petitioner has indicated that it

consents to this extension.
Sincerely,
A
(ot

Hermann Ferré
United States v. Jose Luis Vaello Madero
No, 20-303
CERTIFICATE OF SERVICE

THEREBY CERTIFY, being duly sworn, that on this date, I caused to be served the
foregoing letter pursuant to Rule 30.4 to all parties required to be served, upon their consent to
electronic service, by e-mailing filing the foregoing document to counsel for Petitioner at the
following e-mail addresses:

SupremeCtBriefs@USDOI.gov
United States Department of Justice
Washington, DC 20530-0001
202-514-2217

Vivek Suri

Assistant to the Solicitor General
Vivek.Suri@USDOJ.Gov

United States Department of Justice
Washington, DC 20530-0001
202-514-2217

In New York, New York, this 11th day of September, 2020.

4s/ Hermann Ferré

Hermann Ferré

Supreme Court Bar No. 279715
hferre@gmail.com
